OIG Audit Report 09-13
United States Marshals Service Annual Financial Statement, Fiscal Year 2008
Audit Report 09-13
February 2009
Office of the Inspector General
Commentary and Summary
This audit report contains the  Annual Financial Statement of the United States Marshals Service (USMS) for the  fiscal years (FY) ended September 30, 2008, and September 30, 2007.  Under the direction of the Office of the  Inspector General (OIG), Cotton & Company LLP performed the USMS audit,  which resulted in an unqualified opinion on the FY 2008 financial statements. An unqualified opinion means that the  financial statements present fairly, in all material respects, the financial  position and the results of the entity’s operations in conformity with U.S.  generally accepted accounting principles. For FY 2007, the USMS  also received an unqualified opinion on its financial statements (OIG Report  No. 08-15).
Cotton & Company LLP also issued reports  on internal control and on compliance and other matters.  For FY 2008, the Independent Auditors’ Report  on Internal Control identified one material weakness and two significant  deficiencies.  The material weakness  relates to inadequate funds management controls.  Financial and compliance controls are not  adequate to ensure that obligation transactions are executed and recorded in  accordance with laws and regulations, and related open obligation balances are  accurate and complete. Additionally, a significant  deficiency was reported for the USMS’s information system controls.  The auditors reported that improvements are  needed in the areas of change controls, system software, and access controls.  A significant deficiency was also reported  for the USMS’s financial accounting and reporting quality control and  assurance.  The USMS’s management-review  controls over the completeness and accuracy of the underlying accounting  transactions, data, and account balances continue to need improvement.  This deficiency was classified as a material  weakness in the prior year.  However, the  USMS  implemented several new quality control procedures during FYs 2008 and 2007  that enhanced its ability to prepare interim and final financial statements  within prescribed timeframes and with more accuracy.
The Independent Auditors’  Report on Compliance and Other Matters stated that the USMS’s financial  management systems did not substantially comply with the federal financial  management system requirements and applicable federal accounting standards as  required by the Federal Financial Management Improvement Act of 1996 (FFMIA).  The auditors also reported unauthorized  financial commitments that were not in accordance with the Federal Acquisition  Regulation.
The OIG reviewed  Cotton & Company LLP’s reports and related documentation and made necessary  inquiries of its representatives.  Our  review, as differentiated from an audit in accordance with U.S. generally  accepted government auditing standards, was not intended to enable us to  express, and we do not express, an opinion on the USMS’s financial statements,  conclusions about the effectiveness of internal control, conclusions on whether  the USMS’s financial management systems substantially complied with the FFMIA,  or conclusions on compliance with laws and regulations.  Cotton & Company LLP is responsible for the attached  auditors’ reports dated November 3, 2008, and the conclusions expressed in  the reports. However, our review  disclosed no instances where Cotton & Company LLP did not comply, in all  material respects, with U.S. generally accepted government auditing standards.
Return to OIG Home Page